IN THE SUPREME COURT OF THE UNITED STATES

CLUB ONE CASINO, INC., ET AL.
Petitioner
vs.

No:

20-0846

DAVID BERNHARDT, SEC. OF THE INTERIOR, ET AL.
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
January 22, 2021
cc:
ROBERT AXEL OLSON
GREINES, MARTIN, STEIN &
RICHLAND LLP
5900 WILSHIRE BOULEVARD
12TH FLOOR
LOS ANGELES, CA 90036

